        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Department of Energy's Efforts to
Meet Accountability and
Performance Reporting Objectives of
the American Recovery and
Reinvestment Act




OAS-RA-09-04                     September 2009
                              Department of Energy
                                Washington, DC 20585

                                    September 4, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                  INFORMATION: Special Report on the "Department of
                          Energy's Efforts to Meet Accountability and Performance
                          Reporting Objectives of the American Recovery and
                          Reinvestment Act"

BACKGROUND

The purpose of the American Recovery and Reinvestment Act of 2009 (Recovery Act)
was to jumpstart the U.S. economy, create or save millions of jobs, spur technological
advances in health and science, and invest in the Nation's energy future. The Department
of Energy will receive an unprecedented $38 billion in Recovery Act funding to support a
variety of science, energy, and environmental initiatives. The Recovery Act requires
transparency and accountability over these funds. To this end, the Office of Management
and Budget (OMB) issued guidance requiring the Department to compile and report a
wide variety of funding, accounting, and performance information.

The Department plans to leverage existing information systems to develop accounting
and performance information that will be used by program managers and ultimately
reported to Recovery.gov, the government-wide source of Recovery Act information, and
to OMB. The Department's iManage iPortal, a system that aggregates information from a
number of corporate systems, will serve as the main reporting gateway for accounting
information. In addition, the Department plans to implement a methodology or system
that will permit it to monitor information reported directly to OMB by prime funding
recipients. Furthermore, performance measures or metrics that outline expected
outcomes are being developed, with results ultimately to be reported in a recently
developed Department-wide system.

Because of the significance of funds provided and their importance to strengthening the
Nation's economy, we initiated this review to determine whether the Department had
taken the steps necessary to ensure that Recovery Act funds can be appropriately tracked
and are transparent to the public, and whether the benefits of the expenditures can be
properly measured and reported clearly, accurately, and in a timely manner.

RESULTS OF REVIEW

Although not yet fully mature, we found that the Department's efforts to develop, refine,
and apply the control structure needed to ensure accurate, timely, and reliable reporting to
                                              2

be both proactive and positive. We did, however, identify certain issues relating to
Recovery Act performance management, accounting and reporting accuracy, and
timeliness that should be addressed and resolved. In particular, at the time of our review:

     •   Program officials had not yet determined whether existing information systems
         will be able to process anticipated transaction increases associated with the
         Recovery Act;

     •   System modifications made to the Department's performance management
         system to accommodate Recovery Act performance measures had not yet been
         fully tested and verified;

     •   The ability of prime and sub-recipients to properly segregate and report both
         accounting and performance information had not been determined;

     •   There was a lack of coordination between Headquarters organizations related to
         aspects of Recovery Act reporting. For example, we observed that the Offices
         of Fossil Energy and Program, Analysis and Evaluation were both involved in
         developing job creation estimates that could yield significantly different results;
         and,

     •   A significant portion (91 of 142, or 64 percent) of the performance measures
         developed for the Recovery Act activities were not quantifiable. In some
         instances, Project Operating Plans had not been finalized and we were not able to
         verify that all needed performance measures had been developed. Furthermore,
         the Department had not developed specific metrics to measure federal and
         contractor jobs creation and retention, an essential Recovery Act objective.

The Department had devoted a great deal of time and resources to identifying and
mitigating Recovery Act-related risks. For example, the Department developed a risk
assessment tool that is intended to assist programs in identifying risks that can prevent its
Recovery Act projects from meeting their intended goals. We also found that program
staff and management officials at multiple levels were actively engaged in designing
Recovery Act-related control and accountability programs. These efforts ranged from
updating existing information systems to developing matrices designed to ensure that all
required reporting and performance elements were addressed. Each of these activities
required substantial effort and was accomplished within a relatively short period.
Further, we noted that the Office of the Chief Financial Officer had been instrumental in
helping impacted program elements identify issues that could adversely affect the
Department's ability to execute its accounting, reporting, and performance monitoring
responsibilities.

While much has been done, additional work is necessary if the Department is to
successfully manage Recovery Act-related risks. For example, as previously noted,
OMB has issued guidance establishing Recovery Act monitoring and reporting
requirements. This guidance, however, continues to evolve and the Department is
                                             3

engaged in actively modifying systems and issuing new direction in response to these
changes. Furthermore, we believe that in addition to current initiatives, there are other
actions that could help enhance the Department's ongoing efforts. As such, our report
contains a number of recommended activities that the Chief Financial Officer and
cognizant program officials, in coordination with the Chief Information Officer, should
take in this regard.

The need to report accurate and complete information to the public and OMB is a
Recovery Act imperative. We are concerned that the Department's information systems
supporting Recovery Act activities may be unable to handle significant increases in
workload or provide appropriate mechanisms to ensure that funds are accurately tracked
and reported. As discussed in our recent Special Report on the American Recovery and
Reinvestment Act at the Department of Energy (OAS-RA-09-01, March 2009), without
adequate accounting of funds that includes periodic evaluation of program results,
taxpayers' confidence that Recovery Act projects are meeting intended goals may be
eroded. Furthermore, the absence of adequate and quantifiable performance measures
may limit the ability of the Department, OMB, and the public to accurately gauge the
progress in achieving Recovery Act goals.

This is the latest in a series of reports that focus on the Department's implementation of
the Recovery Act. This report concentrates on the Department's Headquarters-managed
systems for accounting for, reporting, and measuring Recovery Act-related performance.
Separate reviews of efforts in the energy, science, and environmental areas are in process
and will be reported under separate cover.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and agreed to take
corrective action. In certain instances, management indicated that actions necessary to
satisfy the intent of our recommendations had been completed. Management's comments
are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Financial Officer
    Chief Information Officer
REPORT ON THE DEPARTMENT OF ENERGY'S EFFORTS TO
MEET ACCOUNTABILITY AND PERFORMANCE REPORTING
OBJECTIVES OF THE AMERICAN RECOVERY AND
REINVESTMENT ACT

TABLE OF
CONTENTS

Recovery Act Accounting and Performance Reporting

Details of Finding .............................................................................................................1

Comments........................................................................................................................13

Recommendations ...................................................................................................4, 9, 12


Appendices

1. Objective, Scope, and Methodology..........................................................................14

2. Related Reports..........................................................................................................16

3. Management Comments ............................................................................................18
RECOVERY ACT ACCOUNTING AND PERFORMANCE
REPORTING

Background and        As part of the American Recovery and Reinvestment Act
Results               of 2009 (Recovery Act), the Department of Energy
                      (Department or DOE) is required to compile various reports
                      to submit to the Recovery.gov website maintained by the
                      Recovery Accountability and Transparency Board. These
                      include reports detailing funding notifications, obligations,
                      outlays, and Agency-wide and Program-specific plans
                      outlining projects and activities. To meet these
                      requirements, the Department plans to leverage its
                      corporate information systems and utilize iManage iPortal
                      as the main reporting gateway for Department information.
                      In addition, prime recipients of Recovery Act funds will be
                      responsible for reporting information directly to the Office
                      of Management and Budget (OMB), and government-wide
                      systems will be utilized for reporting Recovery Act award-
                      level information. Furthermore, performance measures that
                      outline expected outcomes consistent with the intent and
                      requirements of the Recovery Act must be developed as
                      part of Agency-wide and Program-specific Recovery Plans.

                      Although not yet fully mature, we found that the
                      Department's efforts to develop, refine, and apply internal
                      controls to help ensure accurate, timely, and reliable
                      reporting to be both proactive and positive. We did,
                      however, identify various issues that could increase
                      Recovery Act-related performance management,
                      accounting and reporting accuracy, and timeliness risks.
                      Without adequate accountability and reporting of Recovery
                      Act funding use and results, the Department is at risk for
                      potential fraud, waste, or abuse. To that end, we have
                      recommended a number of actions the Department should
                      take to address these challenges.

Impact of Recovery    To meet the requirements of the Recovery Act, the
Act on Information    Department identified existing corporate systems that will
Systems               be utilized to report Recovery Act information to OMB and
                      Recovery.gov. While Department officials informed us
                      that no new systems will be developed to support Recovery
                      Act efforts, they had identified eight existing systems –
                      some of them requiring modifications – to be used to track
                      and report Recovery Act information. For example, data
                      from the Standard Accounting and Reporting System
                      (STARS) is being submitted as part of Weekly Financial
                      and Activity Reports to provide a compilation of total
                      obligations and gross outlays related to Recovery Act
                      programs. In addition, the Strategic Integrated

________________________________________________________________
Page 1                                            Details of Finding
                      Procurement Enterprise System (STRIPES) is being
                      utilized as the Department's primary interface to collect and
                      provide award-level reporting information on contracts to
                      the government-wide Federal Procurement Data System-
                      Next Generation and the Federal Assistance Awards Data
                      System.

                      As part of its preliminary Recovery Act efforts, the
                      Department identified which systems needed to be
                      modified to meet tracking and reporting requirements,
                      including STARS, STRIPES, the iManage Data
                      Warehouse, and the Corporate Human Resource
                      Information System (CHRIS). Officials informed us,
                      however, that because these systems were upgraded with
                      new hardware and software over the past several years, the
                      existing flexibility of the systems resulted in the need to
                      make very few changes. Although these actions should
                      help alleviate potential issues, we believe that the ability of
                      the Department's information systems to process the huge
                      amount of Recovery Act data is a challenge that requires
                      continued attention of senior Department officials.

                          Information System Risks and Program Mitigation
                                             Strategies

                      The influx of significant new funding presents a number of
                      challenges and risks to the Department related to its use of
                      corporate systems for managing Recovery Act programs.
                      In particular, as a result of OMB mandates, the
                      Department's information systems are required to:

                         •   Have the capacity to handle the large number of
                             additional Recovery Act transactions. For instance,
                             officials informed us that up to 8,000 additional
                             STRIPES transactions per year are expected, a
                             significant increase over normal activities;

                         •   Track and monitor detailed data supporting
                             Recovery Act activities carried out by Departmental
                             programs; and,

                         •   Be capable of appropriately separating funding and
                             program data supporting Recovery Act and non-
                             Recovery Act functions.




________________________________________________________________
Page 2                                            Details of Finding
                      As part of a proactive strategy to address Recovery Act
                      requirements and related risks, responsible program
                      officials had taken action to review and update information
                      systems, as necessary. Specifically, the Department:

                         •   Added storage and server capacity to a few
                             corporate systems that will be used for tracking and
                             reporting Recovery Act funds. During our review,
                             officials noted that they expect to add additional
                             capacity as needed in the future.

                         •   Issued guidance and conducted testing related to
                             newly created edit checks – automated controls
                             designed to test the validity of data – in its
                             procurement system. Specifically, the most recent
                             DOE Acquisition and Financial Assistance
                             Implementation Guide, issued on May 31, 2009,
                             detailed the process for contracting officers to
                             follow when procuring Recovery Act-related
                             resources. In addition, Policy Flashes were issued
                             to alert contracting officers of the edit checks and
                             procedures. The Department also developed an edit
                             check to help prevent the comingling of Recovery
                             Act funds from normal appropriations. Program
                             officials noted that this control was successfully
                             tested in the STRIPES system by entering incorrect
                             information, using mixed project codes (i.e.
                             Recovery and non-Recovery Act), and entering
                             incorrect project codes.

                         •   Issued procurement guidance that instructed
                             contracting officers not to combine Recovery Act
                             and non-Recovery Act funding on a single
                             requisition, even as separate line items. For
                             example, the Department utilizes the Department of
                             Treasury Automated Standard Application for
                             Payments (ASAP) system for financial assistance
                             agreements, which is unable to cost non-Recovery
                             Act and Recovery Act funding separately.
                             However, according to Department officials, the
                             guidance and separate requisitions will help
                             alleviate problems with recipient payments.

                         •   Established new Treasury Appropriation Fund
                             Symbols (TAFS) and codes for the projects
                             submitted for funding under the Recovery Act to
                             track and distinguish the Recovery Act data from
________________________________________________________________
Page 3                                            Details of Finding
                             system to system. Currently, there are 18 TAFS
                             and 163 project codes that will be used to track the
                             funding and ensure linkage between project,
                             performance, procurement, and financial data.

                             Remaining Information Systems Challenges

                      Although the Department had taken actions to update its
                      information systems, several challenges require resolution
                      to help ensure that Recovery Act goals and objectives can
                      be satisfied. In particular:

                         •   As more Recovery Act funds are spent, additional
                             updates to systems may be required to accommodate
                             the increased processing requirements. For instance,
                             program officials informed us that they will not know
                             whether current systems are capable of increased
                             workloads until more transactions are processed by
                             the systems.

                         •   Testing of changes to information systems to
                             accommodate expedited reporting timeframes
                             required by the Recovery Act may be a challenge
                             for various programs and prime recipients. For
                             example, although Department officials reported
                             that they had modified the Program Measure
                             Manager (PMM) system to track Recovery Act
                             performance measure data separately from other
                             activities, they had not yet verified the effectiveness
                             of the changes through system testing.

                         •   As requirements for tracking and reporting data
                             related to Recovery Act activities continue to
                             evolve, Department officials expressed concern that
                             systems maintained by prime recipients may not be
                             capable of necessary modifications.

                                        Recommended Actions

                      To address the risk that the Department's information
                      systems will be unable to accommodate the additional
                      requirements posed by the Recovery Act, the Department
                      should:

                         1. Conduct formal testing of the systems that were
                            modified and will be used for managing Recovery

________________________________________________________________
Page 4                                            Details of Finding
                             Act efforts to help ensure their capabilities meet
                             established objectives;

                         2. Share Recovery Act best practices among programs
                            and continue to provide guidance and direction to
                            programs and field sites regarding the Department's
                            efforts to meet Recovery Act requirements; and,

                         3. Periodically test the output of its corporate systems
                            to ensure that policy is adhered to and users are
                            properly segregating Recovery Act transactions.

                      The actions described above, when completed, should help
                      the Department address the risks associated with
                      developing and maintaining information systems sufficient
                      to meet Recovery Act goals and objectives.

Reporting Recovery    As part of the Recovery Act, agencies must meet seven
Act Information       requirements for reporting information to OMB and
                      Recovery.gov, including Major Communications, Funding
                      Notification Reports, Weekly Financial and Activity
                      Reports, Agency-wide Recovery Act Plans, Program-
                      specific Recovery Act Plans, Award-level Reporting, and
                      Recipient Reporting. The Department is responsible for
                      addressing six of the reporting requirements and recipients
                      are responsible for meeting the remaining requirement.
                      Department officials determined that the iManage iPortal
                      will be used as the main gateway for the Department's
                      reporting to Recovery.gov. Most information for the
                      reports will be generated by corporate systems such as
                      STARS and STRIPES, but will also be compiled through
                      data calls and manual entry. Furthermore, the Department
                      is responsible for continuing to enter award-level
                      information (contracts and federal assistance) into existing
                      government-wide systems, such as Federal Procurement
                      Data System-Next Generation and Federal Assistance
                      Awards Data System, which will then be transmitted to
                      OMB and Recovery.gov.

                      In addition, prime recipients of Recovery Act awards and
                      contracts will need to separately report information to
                      FederalReporting.gov, a website maintained by OMB and
                      used to collect information from prime recipients. The
                      prime recipients of the Department's Recovery Act funding
                      will begin to report information starting on October 10,
                      2009, and will continue to report information by every 10th
                      workday after the end of each quarter. The recipients are
________________________________________________________________
Page 5                                            Details of Finding
                      required to report on several different data elements
                      including the total amount of Recovery Act funds received
                      from the Department, the number of jobs created or
                      retained with those funds, and a detailed list of all projects
                      or activities for which funds were expended or obligated.

                                   Recovery Act Reporting Risks and
                                   Department Mitigation Strategies

                      The addition of new reporting requirements mandated by
                      the Recovery Act presents the Department with various
                      challenges not previously encountered during the
                      management of its programs. Specifically, OMB guidance
                      mandates that the Department:

                         •   Ensure unprecedented transparency of program
                             operations to the public by regularly reporting on
                             the recipients of Recovery Act funds, including
                             detailed reports such as the Weekly Financial and
                             Activity Reports regarding obligation and outlay of
                             funds;

                         •   Develop formal documented plans for how
                             Recovery Act funds will be applied and managed by
                             the Department and program elements; and,

                         •   Perform data quality reviews of recipient
                             information such as comparing expenditures with
                             Department award data to identify significant
                             omissions and/or reporting errors.

                      In response to the unprecedented level of reporting
                      requirements mandated by the Recovery Act, the
                      Department had taken a number of actions to help ensure
                      that it can accurately report information to the public
                      regarding the operation and management of its programs,
                      including activities carried out by prime recipients.
                      Specifically, the Department:

                         •   Developed a matrix that included all Recovery Act-
                             required data elements for reporting and the systems
                             and/or manual procedures that will provide needed
                             information. For example, program officials
                             determined that the Funding Notification reports –
                             which detail all publicly announced award types
                             including contracts, cooperative agreements, and

________________________________________________________________
Page 6                                            Details of Finding
                                   grants – would be developed utilizing information
                                   from the Procurement and Assistance Data System
                                   and STARS.

                             •     Submitted several reports to OMB and
                                   Recovery.gov since February 2009, including Major
                                   Communications, Funding Notification reports, and
                                   Financial and Activity Reports. These reports
                                   detailed items of interest, publicly announced
                                   funding opportunities, and obligations and funding
                                   outlays to prime recipients.

                             •     Developed Project Operating Plans (Operating
                                   Plans) for most of the projects that will be funded
                                   by the Recovery Act. Using these, the Department
                                   compiled and submitted its Agency-wide and
                                   Program-specific Recovery Plans to OMB.

                             •     Assembled a Recovery Act Financial Assistance
                                   Working Group to discuss areas of concern related
                                   to Recovery Act reporting. For example, the group
                                   analyzed risks, controls, and potential process
                                   improvements related to advances using Recovery
                                   Act funding. The group then developed a risk
                                   mitigation plan, which detailed procedures to be
                                   followed to eliminate problems with advances to
                                   funding recipients. However, both the risk
                                   mitigation plan and the procedures remained in
                                   draft at the time of our review.

                                 Remaining Recovery Act Reporting Challenges

                          While the Department had initiated actions to address the
                          challenges associated with transparency and reporting
                          requirements, our review identified a number of risk areas
                          that will require additional or supplementary action to help
                          ensure that the goals and objectives of the Recovery Act are
                          satisfied. In particular:

                             •
                           Absent implementation of the draft procedures for
                           advances of funds to recipients, the Department
                           may report inaccurate information on project
                           progress due to the timing of Recovery Act
                           requirements. Specifically, since the ASAP system
                           used for paying invoices does not show advances, a
                           Financial Status Report needs to be separately filed
                           to show how much funding was taken for advances.
________________________________________________________________
Page 7                                                     Details of Finding
                             However, these reports are not required until 30
                             days after the month close, thus possibly creating a
                             significant difference for quarterly reporting. While
                             it does not currently present a problem, once the
                             Recovery Act funding increases, the differences
                             may become more significant and could impact the
                             Recovery Act reporting. Finalizing and ensuring
                             complete implementation of the Department's draft
                             procedures should help remedy this issue.

                         •   There was a lack of coordination between
                             Headquarters organizations related to Recovery Act
                             reporting. For example, the Office of Fossil Energy
                             was actively working on developing estimates for
                             jobs created and retained based on the funding for
                             its projects. However, Office of Program Analysis
                             and Evaluation (PA&E) officials informed us that
                             they contracted with the University of
                             Massachusetts to develop an overall job estimate for
                             Department Recovery Act funding. PA&E officials
                             noted that if OMB requires a job estimate from the
                             Department, it would provide the job estimates and
                             not solicit any input from officials from other
                             programs. Despite these activities, both the PA&E
                             and Fossil Energy officials were unaware of each
                             others' efforts.

                         •   Department officials have also expressed concern
                             over whether they will have enough time and
                             resources to conduct quarterly reviews of
                             information reported to OMB by recipients. While
                             OMB does not require the Department to conduct
                             an extensive review of recipient information, it does
                             require the Department to perform limited data
                             quality reviews to identify significant omissions
                             and/or reporting errors. At the time of our review,
                             the Department was in the process of developing a
                             quality assurance strategy for reviewing recipient
                             information.

                         •   Department officials indicated that they were
                             concerned that contractors and other prime
                             recipients may not have the capability to track and
                             report the data necessary to meet Recovery Act
                             requirements. For example, officials commented
                             that certain recipients may not have the information

________________________________________________________________
Page 8                                            Details of Finding
                             technology resources necessary to submit electronic
                             information to meet Recovery Act reporting
                             mandates.

                                       Recommended Actions

                      To prepare for the unprecedented level of reporting
                      requirements mandated by the Recovery Act and to address
                      the risks we have identified in our report, the Department
                      should take steps to:

                         4. Finalize and issue procedures for reporting
                            advances under the Recovery Act;

                         5. Ensure adequate coordination among Headquarters
                            organizations;

                         6. Develop a strategy for reviewing recipient
                            information, to include a central office for
                            collection and dissemination of data; and,

                         7. Determine whether any existing corporate systems
                            will be leveraged for the collection of recipient
                            information and, if so, ensure the process is
                            documented and approved.

                      Taking actions such as these are essential to ensuring that
                      the Department's programs and prime recipients report
                      meaningful and accurate data to demonstrate progress made
                      towards meeting the goals of the Recovery Act.

Recovery Act          The Department is required to develop quantifiable
Performance Metrics   performance measures that address the use of Recovery Act
                      funds. These measures should include information such as
                      the length of the period between measurements, the
                      measurement methodology, and how the results will be
                      made readily accessible to the public. In addition, the
                      Recovery Act requires the Department to monitor the
                      progress of program performance to identify areas of high
                      risk or low performance and make any necessary changes.

                      The Recovery Act also requires all prime recipients to
                      report on performance metrics, including those related to
                      the creation and retention of jobs. The current OMB
                      implementing guidance requires recipients to report job
                      estimates for themselves, as well as sub-recipients and
                      vendors. In addition, the Department is required to conduct

________________________________________________________________
Page 9                                            Details of Finding
                          oversight on recipient reporting, including determining the
                          completeness of performance metrics such as the number of
                          jobs reported and progress made in other project areas.

                                           Performance Measure Risks and
                                           Associated Mitigation Strategies

                          The addition of new programs and projects presents
                          challenges to the Department in developing performance
                          measures that meet the goals of the Recovery Act. In
                          particular, OMB mandated the Department develop
                          performance measures that:

                                •    Correspond to the funding, intent, and requirements
                                     of the Recovery Act;

                                •    Are quantifiable, outcome-oriented, and specify the
                                     length of the period between measurements (e.g.,
                                     monthly, quarterly), the measurement methodology,
                                     and how the results will be made readily accessible
                                     to the public; and,

                                •    Can be validated by the Department's programs and
                                     contain documentation supporting the results.

                         In support of its Recovery Act strategy, the Department had
                         taken a number of actions to help ensure that it can accurately
                         measure the progress of programs and projects funded by the
                         Recovery Act. Specifically:

                            •       At the time of our review, the Department had
                                    prepared high-level performance measures for at least
                                    142 of the 163 Recovery Act-funded projects.

                            •       The Department hired independent consultants to
                                    review its performance measures to ensure
                                    consistency across the programs. Specifically, the
                                    consultants were reviewing each of the Operating
                                    Plans to ensure that performance measures were
                                    meeting the intent of the Recovery Act and were
                                    quantifiable and measurable. The Department plans
                                    to use the results of the review to modify the
                                    Operating Plans, as necessary.

                            •
                          Performance measures will be tracked in the
                          Department's PMM system. The Department plans to
                          report the results to the public at the end of Fiscal
________________________________________________________________
Page 10                                                       Details of Finding
                            Year (FY) 2009 in conjunction with the results for the
                            performance measures related to its annual budget.
                            Also, unlike prior reporting systems, the PMM system
                            will provide for external reporting to the general
                            public.

                             Remaining Performance Metrics Challenges

                      The Department had initiated various actions to address the
                      challenges associated with developing appropriate
                      performance metrics. Our review, however, identified a
                      number of risk areas that should be effectively managed to
                      meet the goals and objectives of the Recovery Act. In
                      particular:

                        •   The Department had not finalized all of the Operating
                            Plans and many were still being reviewed by
                            consultants. We were not able to verify that all of the
                            Operating Plans contained performance measures that
                            corresponded to the Recovery Act. Furthermore, the
                            Department has not developed specific measures for
                            federal and contractor jobs created and retained.

                        •   At the time of our review, we found that 91 of 142
                            (64 percent) measures were not quantifiable. For
                            example, the Office of Energy Efficiency and
                            Renewable Energy had a performance measure to
                            initiate a pilot effort using new and innovative
                            approaches to make low-income homes more energy
                            efficient to expand the traditional weatherization
                            program. However, we found no metrics related to
                            how many homes will be included in the pilot or how
                            long the pilot phase will last.

                        •   Although the results are not being reported yet, a
                            prior year report on the Department's Financial
                            Statements disclosed that the performance reporting
                            process had not ensured that reported performance
                            information reflected actual performance and was
                            adequately supported by documentation.
                            Furthermore, as noted in our recent Audit Report on
                            Controls over the U.S. Department of Energy's
                            Performance Measures (OAS-L-09-14, July 2009),
                            we found minor inaccuracies and inconsistencies in




________________________________________________________________
Page 11                                           Details of Finding
                            the reporting of performance information that could
                            negatively impact stakeholders' reliance on reported
                            results.

                                       Recommended Actions

                      To meet the requirements mandated by the Recovery Act
                      and to address the risks to performance reporting we have
                      identified in our report, the Department should:

                        8. Finalize all Operating Plans to include measures that
                           are quantifiable and can be used to measure progress
                           towards meeting the requirements of the Recovery
                           Act and OMB mandates;

                        9. Develop performance measures for federal and
                           contractor jobs created and retained; and,

                      10.   Ensure that established policy and guidance is fully
                            implemented for reporting performance and
                            validating results.

                      Controls such as these are essential to establishing
                      performance metrics that can serve as a mechanism to
                      monitor performance and ensure accountability.

Potential Impacts     Absent action to address the challenges noted during our
                      review, the Department may be unable to report accurate
                      and complete Recovery Act information to OMB and the
                      public. The Department's information systems supporting
                      Recovery Act activities may also be unable to
                      accommodate significant increases in workload or provide
                      appropriate mechanisms to ensure that funds are accurately
                      tracked and reported. In addition, as previously reported in
                      our recent Special Report on the American Recovery and
                      Reinvestment Act at the Department of Energy (OAS-RA-
                      09-01, March 2009), without adequate accounting of funds
                      that includes periodic evaluation of results, taxpayers'
                      confidence that Recovery Act projects are meeting intended
                      goals may be eroded. Furthermore, the absence of
                      complete, adequate, and quantifiable performance measures
                      may inhibit the ability of the Department, OMB, and the
                      public to accurately gauge the progress in achieving
                      Recovery Act goals.




________________________________________________________________
Page 12                                           Details of Finding
MANAGEMENT           Management concurred with 8 out of 10
REACTION             recommendations made in the report. Management
                     indicated that action had been taken or was currently
                     underway to address many of the issues identified during
                     our review. However, management partially disagreed
                     with two of the recommendations in the report.

                     In response to recommendation eight, management agreed
                     that the Operating Plans should contain performance
                     measures; however, management disagreed with our
                     assertion that it did not comply with all Recovery Act and
                     OMB mandates. Officials commented that Operating Plans
                     were developed to be used as a management tool and were
                     not required by the Recovery Act. Management stated that
                     the Recovery Act requires Program-specific Recovery Plan
                     metrics, which had been provided to OMB.

                     Management also partially concurred with recommendation
                     nine to develop performance measures for federal and
                     contractor jobs created and retained. Officials stated that
                     OMB does not require agencies to report or measure
                     federal jobs created under the Recovery Act. However, the
                     Department is currently tracking federal employees hired to
                     conduct Recovery Act work and/or paid with Recovery Act
                     funds.

AUDITOR COMMENTS     Management's comments and planned actions are
                     responsive to our recommendations. We modified
                     recommendation eight to address management's comments.
                     In particular, while we agree that Operating Plans were not
                     required by the Recovery Act, they should contain detailed
                     performance measures that can be used for tracking
                     progress towards meeting Recovery Act objectives. We
                     also continue to recommend that the Department develop
                     performance measures for federal and contractor jobs
                     created and retained. Although we agree that OMB does
                     not require the Department to report on federal jobs
                     creation, the Department should measure its progress in this
                     area as the creation of jobs is one of the primary goals of
                     the Recovery Act.




________________________________________________________________
Page 13                                                Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy (Department)
                      is ensuring that funds provided by the American Recovery and
                      Reinvestment Act of 2009 (Recovery Act) are appropriately
                      tracked and transparent to the public, and whether the benefits
                      of the funds are reported clearly, accurately, and in a timely
                      manner.

SCOPE                 This audit was performed between March and August 2009 at
                      Department Headquarters in Washington, D.C., and
                      Germantown, Maryland, and the National Energy Technology
                      Laboratory in Pittsburgh, Pennsylvania.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed applicable laws, directives, and guidance
                             pertaining to Recovery Act implementation, including
                             Office of Management and Budget (OMB) M-09-10 ,
                             Initial Implementing Guidance for the American
                             Recovery and Reinvestment Act of 2009; M-09-15,
                             Updated Implementing Guidance for the American
                             Recovery and Reinvestment Act of 2009; and, M-09-21,
                             Implementing Guidance for the Reports on Use of
                             Funds Pursuant to the American Recovery and
                             Reinvestment Act of 2009;

                         •   Obtained documentation and held discussions with
                             federal and contractor personnel to discuss what
                             systems were used for Recovery Act tracking and
                             reporting and whether any changes were made to the
                             systems;

                         •   Determined what controls were in place in the
                             information systems to prohibit comingling of
                             Recovery and non-Recovery Act funds;

                         •   Determined the Department's process for reporting
                             Recovery Act information to OMB and the public; and,

                         •   Verified whether performance measures and metrics
                             were in place, or in development, for all Recovery Act
                             funds and determined the process used by the
                             Department to validate the performance metrics results.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those


________________________________________________________________
Page 14                            Objective, Scope, and Methodology
Appendix 1

                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our finding and conclusions based on our audit objectives.

                      We believe that the evidence obtained provides a reasonable
                      basis for our finding and conclusions based on our audit
                      objectives. Because our review was limited, it would not
                      necessarily have disclosed all internal deficiencies that may
                      have existed at the time of our audit. This review of the
                      Department's Recovery Act performance measures included
                      certain aspects of compliance with the Government
                      Performance and Results Act of 1993, as necessary, to
                      accomplish the objective. We addressed the reliability of
                      computer-processed data which we determined to be critical to
                      achieving our audit objective.

                      Management waived an exit conference.




________________________________________________________________
Page 15                            Objective, Scope, and Methodology
Appendix 2

                                  RELATED REPORTS

Office of Inspector General Reports

   •   Controls over the U.S. Department of Energy's Performance Measures (OAS-L-09-
       14, July 2009). This audit revealed that, in spite of specific quality and supporting
       information standards, certain sites and program elements had not completely
       resolved problems with documentation used to support reported performance results.
       Specifically, for some of the tested measures, supporting documentation differed from
       or did not adequately support information reported in the Annual Performance
       Report. For most of the measures, the differences noted were individually immaterial
       and did not have an impact on whether or not an associated goal was achieved.
       However, given the increasing emphasis on accountability and transparency
       associated with the American Recovery and Reinvestment Act of 2009 (Recovery
       Act) they do, in aggregate, represent issues that are worthy of correction.

   •   The American Recovery and Reinvestment Act at the Department of Energy (OAS-
       RA-09-01, March 2009). This report informed the Department of Energy's
       (Department) leadership of the risks that it should consider as stimulus activities
       progress. Specifically, the report identified specific risks discovered during past
       reviews and investigations in areas such as fund accountability and reporting, grant
       and cooperative agreement execution, contract management, and the management of
       loan guarantee efforts. The report also provides the Department with "lessons
       learned" and suggests approaches for reducing the risks associated with the Recovery
       Act funding. Suggested actions are included that should be considered during
       Recovery Act planning and program execution to help reduce the likelihood that
       historical problems will recur. The report also describes the Department's initial
       efforts to identify risks and to develop strategies to help ensure that the Recovery Act
       goals and objectives are satisfied and outlines the OIG's risk-based approach to
       oversight and planned means of satisfying our Recovery Act review and investigative
       responsibilities.

   •   Report on the Department of Energy's Fiscal Year 2006 Consolidated Balance Sheet
       (OAS-FS-07-02, November 2006). This report indicated that the Department's
       performance reporting process does not always ensure that reported performance
       information reflects actual performance and is adequately supported. Specifically, the
       report identified 2 of 29 annual performance targets or performance measures
       selected were incorrectly reported. In addition, the Department was unable to provide
       underlying data to support the reported performance results for an additional 4 of the
       29 annual performance measures tested.

Government Accountability Office Reports

   •   GAO's Efforts to Work with the Accountability Community to Help Ensure Effective
       and Efficient Oversight (GAO-09-672T, May 2009). GAO has been coordinating
       efforts with the Recovery Accountability and Transparency Board, the Inspectors
       General (IGs), OMB, and state and local government auditors to help ensure effective
________________________________________________________________
Page 16                                           Related Reports
Appendix 2 (continued)

      and efficient oversight of Recovery Act funds. GAO regularly coordinates with
      individual Inspectors General, and participates in discussions with state and local
      organizations. Teams working in the states collected documents from and
      interviewed State Auditors, Controllers, and Treasurers; state Inspectors General; and
      other key audit community stakeholders to determine how they planned to conduct
      oversight of Recovery Act funds. GAO also maintains a fraud reporting service,
      which has recently generated more than 25 allegations of misuse of Recovery and
      other federal funds. These allegations are currently under review by the forensic
      audit team.

  •   As Initial Implementation Unfolds in States and Localities, Continued Attention to
      Accountability Issues is Essential (GAO-09-580, April 2009). The Government
      Accountability Office (GAO) describes selected states' and localities' (1) uses of and
      planning of Recovery Act funds; (2) accountability approaches; and, (3) plans to
      evaluate the impact of funds received. GAO's work is focused on 16 states and the
      District of Columbia. States are undertaking planning activities to identify projects,
      obtain approval at the state and federal level, and move them to contracting and
      implementation. Before they can expend Recovery Act funds, states must reach
      agreement on the specific projects; as of April 16, 2009, 2 of the 16 states had
      agreements covering more than 50 percent of their states' apportioned funds, and
      three states did not have agreement on any projects. GAO found that the selected
      states and the District are taking various approaches to ensuring that internal controls
      manage risk up-front; they are assessing known risks and developing plans to address
      those risks. Officials in 9 of the 16 states and the District expressed concern about
      determining the jobs created and retained under the Recovery Act, as well as
      methodologies that can be used for estimation of each.




________________________________________________________________
Page 17                                           Related Reports
Appendix 3




___________________________________________________________________
Page 18                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 19                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 20                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 21                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 22                                         Management Comments
                                                          IG Report No. OAS-RA-09-04

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
